Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




   TEXAS DID NOT ALWAYS
  COMPLY WITH FEDERAL AND
    STATE REQUIREMENTS
         REGARDING
    THE MEDICARE BUY-IN
          PROGRAM

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patricia Wheeler
                                               Regional Inspector General

                                                      October 2012
                                                      A-06-10-00070
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Texas, the Health and Human Services
Commission (the State agency) is responsible for administering the Medicaid program.

Section 1843 of the Act allows State Medicaid programs to enter into an arrangement with CMS
known as the buy-in program. The buy-in program allows participating State Medicaid
programs to enroll dual-eligible individuals (beneficiaries eligible for both Medicaid and
Medicare) in Medicare Part A or Part B, or both, and pay the monthly premium on behalf of
these individuals. Pursuant to section 1634 of the Act, States may enter into an agreement with
the Social Security Administration (SSA) that allows CMS to enroll individuals in a State’s buy-
in program based on their eligibility to receive Supplemental Security Income (SSI). According
to the CMS State Buy-In Manual, once an individual is considered eligible for the buy-in
program, the State has the responsibility to ensure continued eligibility.

States are eligible to receive Federal financial participation to assist in paying Part A and Part B
premiums for individuals in eligible buy-in categories. State agencies report expenditures for the
Medicare premiums and the applicable Federal medical assistance percentage on the Form CMS-
64, Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program.

The State agency claimed approximately $834 million (approximately $581 million Federal
share) for Medicare Part A and Part B premiums paid under the buy-in program during fiscal
year 2009 (October 1, 2008, through September 30, 2009).

OBJECTIVE

Our objective was to determine whether the State agency claimed Medicare Part A and Part B
premiums it paid on behalf of eligible individuals under the buy-in program in accordance with
Federal and State requirements.

SUMMARY OF FINDINGS

The State agency did not always claim Medicare premiums it paid on behalf of eligible
individuals enrolled in the buy-in program in accordance with Federal and State requirements.
In addition, the State agency did not periodically review the status of individuals who received
SSI and were enrolled in the buy-in program by CMS to confirm their continued eligibility.

Of the 100 Medicare Part A and 100 Medicare Part B buy-in payments we sampled, 52 were
made for individuals the State agency enrolled. Of these 52 payments, 47 were made on behalf

                                                 i
of individuals who were eligible for the program. However, five payments were made on behalf
of individuals who were not eligible because their income or resources exceeded levels the State
agency established or because the State agency could not provide documentation supporting
eligibility. Because these five errors did not meet the minimum number of errors required by our
policy on projecting results to the population, we did not estimate an overpayment amount.

The State agency made the remaining 148 payments for individuals who qualified for SSI and
thus were automatically enrolled in the buy-in program by CMS. However, the State agency did
not periodically review the documentation for individuals who CMS automatically enrolls in the
buy-in program to ensure continued eligibility. Because SSA maintained the income and
resource information on these individuals, we did not have access to their records and therefore
could not confirm their eligibility based on SSA’s information. However, we confirmed through
other sources the eligibility of nearly all individuals associated with the 148 payments based on
income.

RECOMMENDATIONS

We recommend that the State agency:

       improve its policies and procedures to ensure that all income and resource information is
       maintained and reviewed in accordance with the State’s buy-in program requirements
       when making eligibility determinations and

       periodically review the documentation for individuals who CMS automatically enrolls in
       the buy-in program to ensure their continued eligibility.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with our first recommendation
but disagreed with our second recommendation, stating that HHSC review or oversight of SSA
and CMS determinations would be inconsistent with an agreement it has with SSA and CMS and
a duplication of existing SSA eligibility determination processes. The State agency’s comments
are included in their entirety as the Appendix.

We maintain that the State agency should periodically review the eligibility of individuals who
CMS automatically enrolls in the buy-in program in accordance with Federal and State
regulations. Nothing in the State agency’s comments caused us to revise the finding or
recommendation with which the State agency disagreed.




                                                ii
                                                    TABLE OF CONTENTS

                                                                                                                                          Page

INTRODUCTION......................................................................................................................1

     BACKGROUND ...................................................................................................................1
       Medicaid Program ............................................................................................................1
       Medicaid’s Role in Medicare Part A and Part B Buy-In .................................................1
       Social Security’s Role in Medicare Part A and Part B Buy-In ........................................2

     OBJECTIVE, SCOPE, AND METHODOLOG ....................................................................2
       Objective ..........................................................................................................................2
       Scope ................................................................................................................................2
       Methodology ....................................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................3

     FEDERAL AND STATE REGULATIONS .........................................................................4

     UNALLOWABLE BUY-IN PAYMENTS ...........................................................................4

     THE STATE AGENCY DID NOT CONFIRM THE ELIGIBILITY OF INDIVIDUALS
      RECEIVING SUPPLEMENTAL SECURITY INCOME AND ENROLLED BY THE
      CENTERS FOR MEDICARE & MEDICAID SERVICES ................................................5

     RECOMMENDATIONS .......................................................................................................5

    STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
     RESPONSE..........................................................................................................................5

APPENDIX

     STATE AGENCY COMMENTS




                                                                      iii
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Texas, the Health and Human Services
Commission (the State agency) is responsible for administering the Medicaid program.

Medicaid’s Role in Medicare Part A and Part B Buy-In

Section 1843 of the Act allows State Medicaid programs to enter into an arrangement with CMS
known as the buy-in program. The buy-in program allows participating State Medicaid
programs to enroll dual-eligible individuals (beneficiaries eligible for both Medicaid and
Medicare because they have low incomes and are either elderly or disabled) in Medicare Part A
or Part B, or both, and pay their monthly premiums.

A State may claim Federal reimbursement for the Part A and Part B premiums paid on behalf of
an individual who meets the eligibility requirements for at least one of the following specified
categories: qualified Medicare beneficiary (QMB), specified low-income Medicare beneficiary
(SLMB), or qualifying individual (QI).

Pursuant to sections 1902(a)(10)(E) and 1905(p)(1) and (2) of the Act, the eligibility
requirements for QMBs, SLMBs, and QIs are as follows:

       QMB: An eligible individual is entitled to Medicare Part A benefits, has income that
       does not exceed 100 percent of the Federal poverty level, and has resources that do not
       exceed twice the limit for SSI eligibility.

       SLMB: An eligible individual is entitled to the Part A benefit, has income above 100
       percent but less than 120 percent of the Federal poverty level, and has resources that do
       not exceed twice the limit for SSI eligibility.

       QI: An eligible individual is entitled to Part A benefits, has income of at least 120
       percent but less than 135 percent of the Federal poverty level, has resources that do not
       exceed twice the limit for SSI eligibility, and cannot be eligible for regular Medicaid and
       QI coverage at the same time.




                                                1
The State of Texas has adopted the Federal income and resource limits for determining eligibility
for the buy-in program for each of the specified categories. The monthly Medicare Part A and
Part B premiums that States pay on behalf of certain groups of individuals enrolled under the
State buy-in program agreements are reimbursable under Medicaid at the Federal medical
assistance percentage (FMAP). State agencies report expenditures for the Medicare premiums
and the applicable FMAP on the Form CMS-64, Quarterly Medicaid Statement of Expenditures
for the Medical Assistance Program (Form CMS-64).

The State agency claimed approximately $834 million (approximately $581 million Federal
share) for Medicare Part A and Part B premiums paid under the buy-in program during fiscal
year (FY) 2009 (October 1, 2008, through September 30, 2009).

Social Security’s Role in Medicare Part A and Part B Buy-In

Pursuant to section 1634 of the Act, States may enter into an agreement with the Social Security
Administration (SSA) that allows CMS to enroll individuals in a State’s buy-in program based
on their eligibility to receive Supplemental Security Income (SSI). Each month, SSA transmits
data records for SSI recipients to the CMS buy-in system. Based on information contained in the
data records, CMS automatically adds or removes individuals from the buy-in system.
According to the CMS State Buy-In Manual, States are responsible for checking the data records
to verify whether individuals enrolled in their buy-in programs continue to be eligible.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Medicare Part A and Part B
premiums it paid on behalf of eligible individuals under the buy-in program in accordance with
Federal and State requirements.

Scope

Our samples consisted of 100 Medicare Part A and 100 Medicare Part B individual monthly buy-
in payments claimed by the State agency from October 1, 2008, through September 30, 2009.
CMS enrolled 95 of the individuals related to the 100 Part A sample payments and 53 of the
individuals related to the 100 Part B sample payments based on their eligibility to receive SSI.
Because CMS enrolled these individuals, we did not have access to their income and resource
information and therefore could not confirm their eligibility based on that information.
However, we confirmed, based on income, the eligibility of nearly all individuals associated with
the 148 payments through either the Wire-to-Wire Third Party Query System, an income
verification system the State uses, or the Texas Workforce Commission.

Our objective did not require us to review the State agency’s overall internal control structure.
We limited our review to obtaining an understanding of the State agency’s procedures for



                                                 2
identifying and reporting to CMS individuals in eligible buy-in categories and for recording and
paying Medicare premiums as claimed by the State agency.

We conducted our fieldwork at the State agency in Austin, Texas.

Methodology

To accomplish our objective we:

       reviewed Federal and State laws, regulations, and policies and procedures related to the
       buy-in program, including the CMS Buy-In Program Manual, Texas’ buy-in program
       agreements, and the Medicaid for the Elderly and People with Disabilities Handbook;

       interviewed personnel from CMS, SSA, and the State agency;

       obtained and compared CMS’s monthly Summary Accounting Statements (billing
       notices) for Part A and Part B premiums from October 1, 2008, through September 30,
       2009, and reconciled the totals to the amounts the State agency claimed during the same
       period on the Form CMS-64;

       identified sampling frames of individuals who were included in the Medicaid buy-in of
       Medicare Part A and Part B premiums during the audit period;

       selected a simple random sample of 100 individuals from each sampling frame using the
       Office of Inspector General, Office of Audit Services, statistical software to generate a set of
       random numbers; and

       verified individual income through the Wire-to-Wire Third Party Query System or the
       Texas Workforce Commission.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

The State agency did not always claim Medicare premiums it paid on behalf of eligible
individuals enrolled in the buy-in program in accordance with Federal and State requirements.
In addition, the State agency did not periodically review the status of individuals who received
SSI and were enrolled in the buy-in program by CMS to confirm their continued eligibility.

Of the 100 Medicare Part A and 100 Medicare Part B buy-in payments we sampled, 52 were
made for individuals the State agency enrolled. Of these 52 payments, 47 were made on behalf
of individuals who were eligible for the program. However, five payments were made on behalf

                                                  3
of individuals who were not eligible because their income or resources exceeded levels the State
agency established or because the State agency could not provide documentation supporting
eligibility. Because these five errors did not meet the minimum number of errors required by our
policy on projecting results to the population, we did not estimate an overpayment amount.

The State agency made the remaining 148 payments for individuals who qualified for SSI and
thus were automatically enrolled in the buy-in program by CMS. However, the State agency did
not periodically review the documentation for individuals who CMS automatically enrolls in the
buy-in program to ensure continued eligibility. Because SSA maintained the income and
resource information on these individuals, we did not have access to their records and therefore
could not confirm their eligibility based on SSA’s information. However, we confirmed through
other sources the eligibility of nearly all individuals associated with the 148 payments based on
income.

FEDERAL AND STATE REGULATIONS

Pursuant to 42 U.S.C. § 1396(d), individuals may not obtain benefits under the buy-in program if
their income and resources exceed the levels established by the State. Also, pursuant to 42 CFR
§ 435.913(a), the State must include documentation to support its decisions on the applications
individuals submit to enroll in the program.

According to Texas Human Resources Code section 32.0243, the State agency should
periodically review the eligibility of a recipient of medical assistance who is eligible based on
the recipient’s eligibility for SSI. In reviewing eligibility, the State agency should ensure that
only individuals who reside in this State and who continue to be eligible for SSI remain eligible
for medical assistance.

UNALLOWABLE BUY-IN PAYMENTS

The State agency made five unallowable buy-in payments. Of the five, three were unallowable
because the payments were for individuals whose incomes, which ranged from $1,215 to $1,951
per month, exceeded category limits (i.e., limits on income based on whether the income is for an
individual or a couple) established by the State. One payment was unallowable because it was
made on behalf of an individual whose resources, which included property valued at $4,980,
exceeded limits established by the State. One payment was unallowable because it was made on
behalf of an individual for whom the State could not provide supporting documentation of
eligibility.

The income and resource information for four of the individuals was available in their case files;
however, the caseworker overlooked it when reviewing the files to determine the individuals’
eligibility. For the fifth unallowable payment, the State agency was unable to locate the case file
supporting the State agency’s buy-in payment for this individual.




                                                 4
THE STATE AGENCY DID NOT CONFIRM THE ELIGIBILITY OF INDIVIDUALS
RECEIVING SUPPLEMENTAL SECURITY INCOME AND ENROLLED BY THE
CENTERS FOR MEDICARE & MEDICAID SERVICES

The State agency did not maintain documentation of periodic reviews to determine whether the
148 individuals CMS automatically enrolled in the buy-in program continued to be eligible. A
State agency official said that the State agency relied on SSA to periodically review the
eligibility of individuals who received SSI and who CMS automatically enrolled in the State’s
buy-in program. The official added that the income and resource limits placed on individuals
who qualified for SSI were much lower than the income and resource limits placed on
individuals who qualified for the State’s buy-in program. Thus, individuals who qualified for
SSI should have qualified for the State’s buy-in program upon enrollment. However, because
the State relied on SSA to perform periodic reviews to determine the eligibility of these
individuals, the State was at risk of making payments for individuals who were no longer eligible
for the buy-in program in Texas (i.e., individuals who may have qualified for SSI but had moved
out of Texas).

RECOMMENDATIONS

We recommend that the State agency:

       improve its policies and procedures to ensure that all income and resource information is
       maintained and reviewed in accordance with the State’s buy-in program requirements
       when making eligibility determinations and

       periodically review the documentation for individuals who CMS automatically enrolls in
       the buy-in program to ensure their continued eligibility.

STATE AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

In written comments on our draft report, the State agency agreed with our first recommendation
but disagreed with our second recommendation, stating that HHSC review or oversight of SSA
and CMS determinations would be inconsistent with an agreement it has with SSA and CMS and
a duplication of existing SSA eligibility determination processes. The State agency’s comments
are included in their entirety as the Appendix.

We maintain that the State agency should periodically review the eligibility of individuals who
CMS automatically enrolls in the buy-in program in accordance with Federal and State
regulations. Nothing in the State agency’s comments caused us to revise the finding or
recommendation with which the State agency disagreed.




                                                5
APPENDIX
                                  Page 1 of 3


APPENDIX: STATE AGENCY COMMENTS
Page 2 of 3
Page 3 of 3
